I
f

SUPREME COURT CASE No, 20-67
SUPREME COURT OF THE UNITED STATES
FOR NINTH CIRCUIT COURT OF APPEALS
CASE NO. 19-55351
PEOPLE OF THE UNTED STATES
AND DELANEY SMITH PHARM.D.,M.D.
CIVIL SURGEON FOR THE UNITED STATES
PETITIONER / PLAINTIFFS
v.

LOS ANGELES COUNTY AND MTA,
LOS ANGELES COUNTY COUNSEL,
ANGELA NOSSETT M.D.,
DEFENDANT/RESPONDANTS
UNITED STATES NINTH CIRCUIT
COURT OF APPEALS “EN BANC PANEL”
AND CHIEF THOMAS
RESPONDANTS,
PETITION FOR REHEARING ON WRIT OF
CERTIORARI [PURSUANT TO FRCP 60(b)(4);
MANDATORY RELIEF FROM “VOID RULINGS”
DUE TO JUDICIAL FRAUD; DESTRUCTION
OF COURT RECORDS; AND LABOR CODE 5953
DELANEY SMITH PHARM.D..M.D.
P.O. BOX 78159 LOS
ANGELES, CALIFORNIA 90016 (323) 333-4893
MONROY AVERBUCK & GYSLER 32123 LINDERO CANYON ROAD
WESTLAKE VILLAGE CA 91361 (818)889-0661

"Eceiveo
NOV 2 0 2020

.a*.

A'

TABLE OF CONTENTS

Grounds for Rehearing,

1

Appendix

p. la

Third Request to File Overword Limit Brief.

P-

Certificate of Good Faith Compliance

P-

1.

GROUND FOR REHEARING
PETITION FOR REHEARING IS BASED UPON
INTERVENING CIRCUMSTANCES OF SUBSTAN­
TIAL EFFECT INCLUDING FACT THAT PETI­
TIONER’S NOTICE OF ERR AND CORRECTIONS
WAS REPORTELY “LOST” IN MAIL BUILDING OF
UNITED STATES SUPREME COURT ACCORDING
TO MICHAEL DUGGAN IN MAIL BUILDING
AND THEREFORE NOT IN THE CASE FILE FOR
PURPOSE OF 9/28/20 CONFERENCE ACCORDING
TO ATTORNEY “NICK” IN CLERK’S OFFICE
THERE IS EVIDENCE NINTH CIRCUIT PANEL
CHIEF THOMAS, RAWLINSON, SILVERMAN
AND FREEMAN IN ADDITION TO NOT FILING
THE NOTICE OF REMOVAL AND FILING FEE
NEEDED TO CREATE “APELLATE SUBJECT
MATTER JURISDICTION TO MAKE RULINGS”
THESE JUDGES CREATED A FAKE CASE FILE
[19-55351], IN WHICH DOCKETED ITEMS NO. 1
AND 2 ONCE DOWN LOADED ARE INSTEAD
INSTRUCTIONS OF HOW TO FILE AN APPEAL;
WHICH ARE FCC, MAIL FRAUD AND FEDERAL
RICO VIOLATIONS IN ADDITION TO WORKER
COMPENSATION FRAUD
[PURSUANT TO
INSUR. CODE SECTION 1871.4, PENAL CODE
SECTIONS 549, 55(A. FRCP PETITION FOR WRIT
OF MANDAMUS PURSUANT TO FRCP 60(b)(4)
CANNOT BE “DENIED” WHERE COURT OF
APPEALS HAS DESTROYED CASE RECORDS
UPON WHICH APPEAL F19-553511 WAS BASED
“LEAVING NO OPPORTUNITY TO BE HEARD”
PETITIONER IS A “BLACK AMERICAN” WITH 25
USC SEC 1912 I.C.W.A. RELATED COMPLAINTS
1.

First I would like to say that this distinguished body
of UNITED STATES SUPREME COURT JUSTICES
are not to be blamed for the present circumstances
and “real life impact” that result from the fact that
as compared to 1869 when the United States
Supreme Court’s panel was increased to 9 Justices to
accommodate a population of 38,000,000 people now
150 years later the same 9 Justice panel is expected
to accommodate a population of over 350,000,000
people. The combination of being able to hear just 8090 case out of approximately 10,000 submissions,
which are highly dependent an imperfect screening
process at Court led by Attorney Clerk Scott Harris
has led to disparate impact on the African American
community to such an extent this petitioner has
proposed several corrective actions to the United
States Congress.
THIS IS A MULTIFACTED FEDERAL CIVIL RIGHTS;
INVOLVING
ADDITIONAL
MATTERS
TOO
NUMEROUS TO DISCUSS IN THE PETITION [S. CT.
20-67] NOW BEFORE THE COURT, ONE OF WHICH
INVOLVES A NATIONAL SECURITY THREAT AND
RELATED WAS ALERT SENT TO THE U.S.
DEPARTMENT OF JUSTICE FOLLOWING THE 9/28/20
“DENIAL” WITHOUT SUBMITTED DOCUMENT
CORRECTION IN THE FILE OR CONSIDERED
BECAUSE IT WAS LOST AT THE MAIL BUILDING
ACCORDING TO STAFF.
Numerous Cyber attacks with ‘auto-saved” related
deliberately introduced err is believed to be coming
from the “Court of Appeals For District Courts” AND
[CADC] “Recipients” are currently in violation of
federal Freedom of Information Act for failing and
2.

V

refusing to send requested court documents [ie Case
Docket for MTA (2000) federal judge Nora Manella now missing but with no explanation. Senior district
court judge is Ronald Lew [also disqualified from
making any decisions in this case [pursuant to 28
USC sec. 455(a) and Federal I.C.W.A. violation in
related Child Abuse
Involving Unauthorized
Medical Research on black and Latino Children in
LA County Foster Care Program, for which one
researcher Dr. Frederick Mishkin surrendered his
license to California Medical Board rather than
comply with request to provide research documents.
Medical Experimentation on Children in Foster
Care.
Due to space limitations the Petition For Writ
focused on Judicial Fraud and attorney fraud that
has protracted these matters through concealment
for decades and ongoing workers compensation fraud
against injured American workers.
Ongoing
computer “cyber attacks” and related “auto recovery”
resulted in several deliberately introduced errs. As a
direct result of described cyber attacks a Notice of
Errs and Corrections was served on Clerk of U.S.
Supreme Court
c/o Michael Duggan [mail room
clerk] via overnight Express Mail with Signature
required on 9/14/20.
On or about 9/27/20 mail
building assistant Michael Duggan confirmed that
Notice of Errs was not in the case file and lost.
On or about October 1, 2020 Clerk’s Office attorney
“Nick”confirmed the file it still did not contain the
Notice of Errs and Corrections sent via overnight
mail on 9/14/20 [but lost in the mail building].
3.

Attorney Nick in Clerk’s Office told me that a copy of
the “Notice of Errs and Corrections” lost but could be
attached if I filed a “Petition For Rehearing.” District
court Clerk’s Office or California Appeals Court for
District Courts ‘recipients’ [CADC] email location in
addition to noncompliance with request repeatedly
sent fake docket 2:00 cv 05986 CWx RGK —R. Gary
Klausner [entered case via fake path on 11/26/12].
[CADC] email “recipients” pretending to be clerk of
federal District court clerk Rose Henderson failed to
comply with Federal Information Act by not
providing an explanation for reason the clerk of the
district court Rose Henderson was unable to provide
federal court docket for MTA case No. cv 2:00
5986 NM(CMx) — which was removed from federal
court to WCAB due to lack of federal judge’s subject
matter jurisdiction to overrule related WCAB rulings
and substitute federal laws for state administrative
regulatory laws [ie. Title 8 California Code of
Regulations 9792.5, 10490] which rendered all of her
federal courts null and void, when she ignored the
removal and instead claim to end the case on
11/19/04 by extending contractual arbitration
agreement with First Health PPO Network to the co­
defendants Travelers Insurance Company and others
that had no contract and no arbitration agreement
which rendered the ruling with no arguable basis for
subject matter jurisdiction to make the ruling “null
and void”. All related court documents then
disappeared from the federal court’s electronic data
base of records, and a fake case 2:000 — 05986 RGK
was created and related documents electronically
generated by judge Klausner’s name on the docket,
but he was not a Los Angeles Superior Court judge in
2000...but began making rulings in 2016.
4.

CONGRESSIONAL REVISION REQUIRED
Petitioner’s suggestion has nothing to do with politics
but is based upon the overwhelming work load on
Nine Justices at times even making decisions from
home [but always dependent upon documents that
mail building assistant Michael Duggin and
clerk/Attorney Scott Harris selectively sent while
ignoring regulatory Sup. Ct. Rules]. This duo
improvidently returned, stole or destroyed records
that should have been filed, that this petitioner can
point to with specificity,' made possible by recycling
essentially same two cases simultaneously with same
state law workers claims for twenty years, with
“contradictory rulings” because unlike Federal Judge
Nora Manella in MTA case (2000) Federal Judge
Percy Anderson issued an Order to Remand
pursuant to 28 U.S.C. sec 1447(c). Under described
“unique circumstances” the challenge for 9th Circuit
Appellate court justices in order to effectuate the
usual “100% favorable “businesses outcomes” had to
be tailored in a new way because petitioner had
pierced the veil created by “only one bite at the
apple” [limitations]; even removing MTA case to
WCAB. Ignoring L.C section 5953, and finality of
WCAB administrative judge rulings was no longer
enough, documents had to be destroyed and others
created including the entire initial MTA Case File
United States Supreme Court Case Outcomes Should
Not Be Influenced bv Politics or Dark Money “Donor
Trusts” and Corruption as is Currently Being Raised
Bv Members of United States Congress Judiciary
Committee. Entire MTA case and electronic record
filed at LA Superior Court disappeared including
5.

MTA (2000) case docket [a case that never had a
final disposition because of attempts by judge
Manella to end case by arbitration with no contract
agreement with any co-defendants except for First
Health PPO Network, and after April 2004 removal
to WCAB.
JUDICIAL FRAUD NULLIFIED RULINGS
Pursuant to 60(b)(4) under circumstances whereby
No Appeal or related hearing was possible because of
“judicial fraud” there is no case file under related
Appeals [16-56176 orl9-55351] under circumstances
where the Notice of Appeal, “Informal Brief or FRCP
60(b)(4) Petition” were stolen along with the $505.00
filing fee by Appellate justice Thomas. The same
justice Thomas had previously stolen the Clerk’s
Memorandum dated 5/31/17 from the file because it
invalidated the 6/1/17 ruling of Thomas, Silverman,
and Rawlinson, upon which United States Supreme
Court case 17-407 was severed and rendered “null
and void” for that same reason [6/1/17 ruling and
decisons was rendered null and void”, [see App. pp.
Federal Plaintiff Pursuant to FRCP 60(b)(4)
Petitioner was entitled to petitions filed for
mandatory relief from “void rulings”. On 7/25/11
federal court judge served Order to Remand but it
was intercepted by Los Angeles county counsel acting
as counsel for Los Angeles County MTA who also
doubled as Counsel for Los Angeles Superior Court
with full access to court records. Los Angeles County
counsel [also doubling as Court Counsel] identified
6.

as county counsel last name “Bennett “[First name
believed to be Frederick by told Default Window
clerks not to enter default filed on 7/29/11 [2 days
after Acknowledgement of Receipt dated 7/27/11 was
signed at Los Angeles Superior Court administrators
in room 102 but was stolen by Los Angeles County
Counsel identified as Court Counsel Bennett; also is
believed to have stolen the Federal Court Order to
Remand issued by federal court judge Percy
Anderson. Similar “concealment tactics” have caused
prisons of California to overflow into adjacent states.
County Counsel Frederick Bennett is known as “a
liar” [who hides documents] around the world.
“In the 80’s and 90’s the LA-JR [Los Angeles
Judiciary Racket] was in control of drug markets and
[continuing] A
large -scale false imprisonment
proposed organizational chart of the LA-JR
suggested that key figures are: Court Counsel
Frederick Bennett, who operates
secretive
corporations controlled by the LA-JR; and California
Judge Jacqueline Connor, who was central to the
Rampart corruption scandal and it’s cover up. ... [See
Wide Spread Corruption of the Los Angeles Superior
Court —presented in the 16th World Criminology
Congress, Japan] [see App. p. ]
United States Supreme Court has ruled:
“If federal plaintiff presents an independent claim,
even one that denies a state’s legal conclusion in a
case in which the plaintiff was a party, there is
jurisdiction and state law determines whether the
defendant prevails under preclusion principles”
7.

Exxon Mobil Corp. v. Saudi Basic Industries Corp.
544 U.S. 280 (2005) -Opinion presented by Justice
Ginsburg [see pp. 37, 43 Petition For Writ of
Certiorari -20-67]
it is believed deliberately introduced err with
“auto recovery” was causation for err in petition for
writ of certiorari which reads....“state court
determines....” P.37 This was corrected in Notice
of Corrections and Errs reportedly lost in mailroom.
Pursuant to FEDERAL ERIE DOCTRINE AND
California Code of Procedure section 1054 cited
herein] this case terminated for defendants no more
than 60 days after with removing party Los Angeles
County was served with [Case No. BC 459413] First
Amended Compliant With Exhibits A-N filed at Los
Angeles Superior Court on May 6, 2011 when this
petitioner filed FAC Summons and complaint with
Clerk of Court and personally served Frederick
Bennett at Office of Los Angeles County counsel with
Summons and FAC the same day. Additionally,
County Sheriff served the Summons and FAC on
removing party County of Los Angeles on 5/11/11.
Seemingly in a panic county counsel acting as
counsel for Los Angeles County MTA Mary Reyna
removed the case to federal court without serving
plaintiffs or even identifying plaintiffs on Service
List.
There suspicion and is reason to believe federal court
judge Percy Anderson did not realize there were
federal claims and EOC right to sue letter pertinent
to this case, because the defendants may have
8.

attached only to the “original complaint” [and not the
FAC to the Petition for Removal because the FAC
clearly includes federal causes of action]. MTA case
was hastily removed by county counsel Mary Reyna
and Fortner on 6/13/11 after the last of co-defendants
Fortner was served with FAC on 6/10/11. MTA
counsel Mary Reyna conspired not to serve Chief
County Counsel Fortner and the other co-defendants
as part of “removal fraud” to avoid state law
California Code of Procedure sec 1054 which
states......
“Section 1054 Code ofRegulations provides, in effect
that no extension of time exceeding 30 days may be
granted by a judge without the consent of the
adverse party” [W.A. Rose v.Municipal Court 176
Cal. App. 2d 67 (1959)]
The tardy removal to federal court and all rulings
after July 6, 2011 including July 13, 2011 removal to
federal district court judge Percy Anderson and
Appellate Courts had net effect of ignoring statutory
closure of case on July 6, 2011 with defendants in
‘irreversible default”, [also see federal law Beller and
Keller v. Tyler]
W.A. Rose continues
“But this order was an attempt to extend the time to
answer to plead beyond thirty days without consent
of the plaintiff, and was thereby beyond the
jurisdiction of the court and void” (Code Civ. Proc.
Sec 1054; Baker v. Superior Court, 71 Cal. 583;
Gibson v. Superior Court, 83, Cal. 643) [cited by W.A.
9.

L

Rose v. Municipal Court, 176, Cal. App. 2d 67 (Cal.
Ct. App. 1959) [see petition for writ certiorari . 23].
Pursuant to 28 U.S.C. sec 1447(d) federal judge Percy
Anderson remanded the case with defendants in
irreversible default which should have ended the
case, but as discussed Los Angeles County Counsel
stole the federal judge’s order to remand from clerks.
With no Notice of Removal in the state court’s file
[mailed by the federal clerk caused case to remain in
federal court under state court law which requires
state court post remand jurisdiction resumes when
clerk files the Order to Remand.
MULTIFACETED FEDERAL CIVIL RIGHTS CASE
WITH HATE CRIMES AGAINST BLACK AND
LATINO CHILDREN COMMITTED BY CHIEF
JUSTICE FORTNER AND LA COUNTY DCFS
Federal Plaintiff/ Petitioner is a Mandated Reporter
of Child Abuse. Los Angeles County Counsel named
in this case facilitated child abuse that included
“Human Experimentation on children in foster care
for which there is proof and evidence that will be
presented when this case is remanded to federal
court judge Percy Anderson for Relief From Void
Rulings and is available if requested by the Justices
of the United States Supreme Court.
However. For Purpose of this 60(b)(4) Petition the
only question before the United States Supreme
Court Justices is whether the rulings in this case are
“void” and if not... .why not?
“There is no discretion to ignore lack ofjurisdiction”
Joyce v. U.S. 474 F 2d 215
10.

NO ARGUABLE BASIS FOR SUBJECT MATTER
JURISDICTION TO IGNORE OR DENY A TIMELY
FILED 60(b)(4) PETITION FOR RELIEF FROM
VOID RULINGS
“The court has no discretion to deny a motion to
vacate a “voidjudgment”. Ifmotion is based on a void
judgment under Rule 60(b)(4), the district court has
no discretion- the judgment is either void or it is
not. ” [Jackson v. FIE Corp. (5th Cir. 2002) 302, F 3d
515. 521, (internal quoted omitted) Oilfield v.Pueblo
De Bahai Lora S.A. (lPh Cir. 2009) 558 F 3d 1210.
[see Petition For Writ of Certiorari p. 24]
“There is no discretion to ignore lack of subject
matterjurisdiction” Joyce v. U.S. 474 F 2d 215
Critical to this case... petitioner is a federal plaintiff
with right to federal court venue pursuant to United
States Supreme Court’s ruling cited in EXXON case,
in err was denied in 12/11/18 federal ruling of judge,'
but this was no simple err because it left petitioner
with opportunity to be heard in state or federal
courts [thereby meeting the elements required for
60(b)(4) as set forth by United States Supreme Court
in Student Aid Fund v. Espinosa cited below.
Ninth Circuit Chief Justice Thomas stole the NOA,
Filing Fee and Appeal.... and created a mock case file
[19-55351] in which docket items cannot be
downloaded because initially filler paper [ie court of
appeals filing instructions were inserted as docket
items 1 & 2.] This action denied petitioner an
11.

L.

opportunity to be heard on Appeal with no NOA in
file folder [Evidence see Appendix p. ]
Once it was revealed that Appeals Case No. 19-55351
is fake and no case file items existed that were
consistent with those identified on the fake docket...
the entire case file [19-55351] disappeared from
PACER federal court electronic data base. PACER
has become a highway for similar JUDICIAL
FRAUDS frauds that are well documented in this
casets].
Re- Related Judicial Disqualification and Void
Rulings
The highest form of proof and evidence.... is the fact
the Respondent Appellate Court Chief Justice
Thomas has not will not ‘deny’ the facts of the case
as stated in the petition for writ of certiorari and
thereby admitted to all of the claims of “Judicial
Fraud” including stealing the $505.00 filings fees
when creating these fake Appeals cases.
For the purpose of case now before the United States
Supreme Court the question is whether the rulings
in Ninth Circuit Court of Appeals case No. 19-55351
valid or void” with no NOAs on file and did the
Appellate rulings leave federal plaintiff with no
opportunity to be heard and related “violations of
“due process” 5th Amendment right of United States
Constitution [because entire Appellate Case file upon
which Petition for Writ of Certiorari is based is
missing from PACER federal electronic data base].
12.

Under federal law only the Justices of the United
States Supreme Court can review, modify, or in any
way change or ignore WCAB decisions [ie pertinent
to this case Joyce Chapman v. Los Angeles County
MTA Case No. MON 206148 FINDING OF FACTS
By WCAB judge Pamela W. Foust Pertinent to the
workers compensation claims of injured workers
Joyce Chapman and others pertinent to this
petitioner WCAB judge Foust ruled.... “Said claim is
not barred by the doctrine of laches or equitable
estoppel”. 1/17/01 -PETITION APPENDIX 13(a)
This ruling by a single WCAB judge Pamela Fouste
“laches does not apply” rendered all federal district
court [ie. R. Gary Klausner (2016)] and Ninth Circuit
Appellate Court rulings [ie. Thomas, Silverman and
Rawlinson 5/24/17] which mentioned a time restraint
in this case... were rendered “null and void”because
federal court iudses cannot overrule WCAB judges.
On Judicial Fraud:
Federal court judge R. Gary Klausner entered the
federal MTA (2000) of judge Nora Manella on
11/26/12 via a “fake electronic path” after court judge
Percy Anderson ruled the same day “Case is Closed,
Motion to Vacate still Pending”. That allowed R.
Gary Klausner’s name to be inserted in place of the
name of federal judge Nora Manella on the 2000 case
docket. It is for that reason and others that to date
the Clerk cannot find or produce a docket for MTA
case No. 2:00 -5986NM (CWx). Federal Court Judge
Klauner was not a Los Angeles Superior Court judge
in 2000 when that action was filed.
13.

\

t

Labor Code section 5953: Appeals Board’s findings of
fact are final; right to appear at hearing: “The
findings and conclusions of the appeals board on
questions of fact are conclusive and final and not
subject to review. ” See Workers Compensation Laws
2004 Edition.
“The United States Supreme Court has exclusive
jurisdiction to review state appellate decisions.
Feldman, 460 US. at 486. See also 28 USC sec 1257.
This rule applies even when the state courtjudgment
remains subject to appeal before the highest court,
see Worldwide Church of God v. Me Nair, 805 F. 2d
888, n.3 (9th Cir 1986), and when the challenge to the
state actions involves federal constitutional issue.
Feldman 460 U.S. Me Nair 805, F. 2d at 892-93...
Because resolution of Sherman's current claims
would require a review of the merits of the WCAB’s
and state court decisions, the district court did not
err by concluding that it lacked subject matter
jurisdiction over the claims. Feldman 460, U.S. at
484-86; Me Nair 805 F 2d at 892-93. Sherman v.
Berlin — Panel of Browning, Farris and Leavy
MTA case contradictory ruling [affirming removal]
required “En Banc Panel” Ruling according to
Rutters Federal Appellate Procedure. Instead
Appellate judge Thomas created a fake case file [1656176] with no NOA or documents in file that
aligned with the fake docket and case disappeared,
which nullified “denial” of Sup. Ct. Case 17-407 on
that additional ground. Disqualified Appellate judge
Thomas and panels’ ruling in fake Appeal [19-55351]
14.
is consistent Feldman.

Original jurisdiction pursuant to EEOC “right to sue
letter and concurrent jurisdiction to rule never left
federal court judge Percy Anderson whose Order to
Remand was ignored by state court, and County
Counsel after remand pursuant to 28 USC sec
1445(c).
United States Supreme Court has ruled,
“But neither Rooker nor Feldman supports notion
that properly invoked concurrent jurisdiction
vanishes if a state court reaches judgment on the
same or a related question while the case remains
sub judice in a federal court..... ”
“The Rooker-Feldman doctrine does not preclude the
federal court from proceeding in this case. Exxon
Mobile has not repaired to federal court to undo the
Delaware judgment in it’s favor, but appears to have
filed it’s federal suit (only two weeks after SABIC
Sled in Delaware and well before any judgment in
Rooker Feldman did
state court) to protect itself,
not prevent the District Court from exercising
jurisdiction when Exxon Mobile filed the federal
action, and did not merge to vanquish jurisdiction
after Exxon Mobile prevailed in the Delaware courts.
The Third Circuit misperceived the narrow around
occupied by Rooker — Feldman, and consequently
erred in ordering the federal action dismissed. ”364 F
Ginburg, J.
3d 102, reversed and remanded
delivered the opinion for unanimous Court” Exxon
Mobil Corp. v, Saudi Basic Industries Corp. 544 U.S.
280 (2005)
15.

1

“DENIAL” CREATED NATIONAL EMERGENCY
AND NEED FOR ALERT TO BE FILED WITH
THE UNITED STATES DEPARTMENT OF
JUSTICE AND U.S. SURGEON GENERAL
“Denial” issued on 9/28/20 served as a signal to
CHINA to re-emerge from Travelers- Aetna [shut
down by DOJ] subsidiary of China based CVS
Pharmacies using new name “Optum” was causation
for National Alert. Notice Filed With Attorney
General William Barr United States Department of
Justice and United States Surgeon General Adams.
The decision to “deny” signed by Attorney /clerk Scott
Harris impaired recovery pursuant to FRCP 60(b)(4)
rights from co-defendant Travelers Insurance
Company [aka Travelers -Aetna includes theft of
“intellectual property” trade mark and copyright
protected “Community Healthcare Cooperative Pilot
Project” stolen after signing NDA and now being
used by CHINA based Aetna in a corrupt form that
will continue to takeover even larger segments of
U.S. Healthcare Industry market which while very
serious the complexities of which are not appropriate
for this Petition For Rehearing... EXCEPT TO
REQUEST THAT THE U.S. SUPREME COURT
SUSPEND ANY AND ALL HEARINGS ON THE
“AFFORDABLE CARE ACT” UNTIL THE COURT
MAKES A DECISION AND RULING IN THIS
RELATED CASE AS OUTCOME WILL IMPACT
NATIONAL
SECURITY
FOR
REASONS
REPORTED TO U.S. DEPARTMENT OF JUSTICE.

16.

UNOPPOSED TREATING PHYSICIANS OPINION
It is this Primary Treating Physicians Opinion
[pursuant to Labor Section 4061.5] that no one
includingjudges are above the criminal laws of the
laws of United States and the United States
Constitution which I am certain that this
distinguished body ofJustices... will not deny.
‘Due process of law and the equal of the laws are
secured if the laws operate on all alike, and do not
subject the individual to an arbitrary exercise of the
powers ofgovernment” Duncan v. Missouri 152 U.S.
377, 382, (1894) Pet. For Writ of Certiorari p.46
“A judgment is not void *for example, “simply
because it is or may have been erroneous”. Hoult.
Hoult, 57 F 3d 1, 6 (CA) [1965]; 12 J. Moore et. al.
Moore’s Federal Practice sec. 60.44[l][a]‘> pp. 60-151
(3d ed. 2007) (hereinafter Moore’s). Similarly, a
motion under Rule 60(b)(4) applies only in the rare
instance where a judgment is premised either on a
certain type ofjurisdictional error or a violation of
due process that deprives a party of notice or
opportunity to be heard. See United States v. Boch
Oldsmobile. Inc. 909 F 2d 657, 661 (CA1 1990);
Moores sec. 60 44[l][a]'> 11C. Wright. A. Miller, & M.
Kane, Federal Practice & Procedure sec. 2862. P. 331
(2d ed. 1995 and Supp. 20090• of Chicot County
Drainage Dist. v. Baxter State Bank 308, U.S. 371,
376 (1940); Stoll v. Gottlieb, 305 U.S. 165, 171,-172
(1938).
Federal Courts considering Rule 60(b)(4) motions
17.

that assert a judgment is void because of a
jurisdictional defect generally have reserved relief
only for the exceptional case in which the court that
considered the judgement lacked even an “arguable
basis” for jurisdiction. Nemaizer v. Baker, 793 F 2d
58, 65 (CA2 1986); see Boch Oldsmobile, supra at
661-662 (“[Tjotal want of jurisdiction must be
distinguished from an error in the exercise of
jurisdiction, and ....only rare instances ofa clear
usurpation of power will render a judgment “void”
clear usurpation of power will render a judgment
void”(bracket and internal quotation marks
omitted)).
“.....Rule 60(b)(4) strikes a balance between the need
for finality of judgments and the importance of
ensuring that litigants have a full and fair
opportunity to be heard. "United Student Aid Funds
Inc. v. Espinoza (9th Circuit) No 08-1134 (March 23,
2010)
Pursuant to Civil Rights Act (1994) sec 1983
Continuing Acts Doctrine Applies to all Related
Federal Court Claims to Date Never Ruled On in
This Case**
This is a case in which “there was no opportunity to
heard” over a 20 year span of time for reasons stated
herein including but not limited to the fact that the
current Appeals [App■ 19-55351] upon which this
petition for writ of certiorari [Sup. Ct. 20-67] is based
does not exist in PACER. The Appellate documents
cannot be downloaded because for the purpose of
violating petitioner’s Federal Civil Rights pursuant
18.

to sec 1983...’’acting under color of law” Chief
Appellate Court judge Thomas conspired with others
to hide tens of thousands of pages of court records
and criminal acts too numerous to describe herein
[pertinent to this petitioner alone].
Pursuant to Labor Code section 4061.5 this primary
treating physician Opines Appellate Court judges
Rawlinson. Silverman, and Freeman conspired to
create a fake Appellate Case No. [19-55351] that
contained state law workers compensation claims [to
avoid prohibitions of United States Congress as
expressed pursuant to 28 USC sec 1445(c) using FCC
and electronic data base PACER for purpose of
denying petitioner’s Constitutional 5th Amendment
Right to “due process” and 14th Amendment Right to
“equal application of the laws”1 for purpose of
concealing ongoing RICO, mail fraud and FCC
violations [‘business as usual practices” at Ninth
Circuit Court of Appeals], Hide The Ball is heavily
relied upon tool ...in place for decades for purpose
assuring good outcomes for the “status quo”! while
denying the rights of American injured workers,
concealing criminal misconduct by judges attorneys/
and the blocking the ascent of African Americans in
American society using described “systematic
methodologies” to perpetuate and sustain “systemic
racism”. Racism is described as an “incurable mental
illness” by the British Journal of Medicine whose
symptoms reportedly may be ameliorated by “beta
blockers”.

19.

“When a judge knows that he lacks jurisdiction, or
acts in the face of clearly valid statutes expressly
depriving him of jurisdiction, judicial immunity is
lost ” Zeller v. Rankin 101 S. Ct. 2020 451 u.S. 939,
68 L. Ed. 2d 326.
Federal judge Klausner made rulings from a fake
case and docketcase number 2-00 cv- 05986 RGK
CWX after federal district court judge Nora Manella
[now lead judge for State of California Court of
Appeals 4th District]MTA case records disappeared
from district court records [Nora Manella case
number 2-00 cv -05986 NM CMx. Defendants have
not made an appearance in years. Accordingly, each
Appellate docket that reflects an “appearance by
defendants” is immediately identifiable as a fake for
that reason. No NOA or Appearances for the
defendants could be downloaded using PACER before
entire case filed disappeared.... which render all of
those Appellate Case rulings “null and void”.
Pursuant to &b and 14th Amendments to the United
States Constitution... and FRCP 60(b)(4) due to
judicial ffaucT ...“immediate monetary relief from
“void rulings”is not discretionary... it is mandatory
pursuant to FRCP 60(b)(4) to which I am certain that
this DISTINGUISHED BODY OF UNITED STATES
SUPREME COURT JUSTICES WILL AGREE.
“Mere passage of time cannot convert a void
judgment into a valid one. Thus, there is generally
no time limit on Rule60 (b)(4) motions and the
doctrine oflaches has no effect. The one-year limit on
Rule 60(b)(l)-(3) motions does not apply.” [Jackson v. .
20.

FIE Corp. supra, 302 F 3d at 523-60(b)(4) made 2
years after entry of default judgment. Meadows v.
Dominican Republic (9th Cir. 1987) 817 F 2d 517,
521]
Ninth Circuit Court of Appeals “lacks any arguable
basis for subject matter jurisdiction” to apply
“contradictory rulings” within the same Circuit for
purpose ofignoring meritorious Civil Rights claims...
the impact of which has led to no successfiil outcomes
for African American litigants in decades>' when this
methodology is applied as a tool ofsystematic racism.
Pursuant to Labor Code section 4061.5 this Primary
Treating Physician contends that 9th Circuit Court of
Appeals and Los Angeles Central District - Western
Division court’s practice of creating “hypothetical
jurisdiction” by creating fake case dockets and files')
with intent to ultimately destroy entire fake case
file[s] after “voidrulings”... are ongoing violations of
5th and 14th Amendments to the United States
Constitution and violations of Federal Civil Rights
Act (sec. 1983) “while acting under color of law” and
intent of the United States Congress as expressed
pursuant to 18 USC sec 1001, 1503, 1505”. Copy of
“Motion to Vacate” filed on 12/20/04 [still never ruled
onl is proof of Judicial Fraud. Arbitration did not end
case on 11/19/04 [see - App.__ ]
Pursuant to the Federal ERIE DOCTRINE and
California Code of Procedure 1054, the defendants
were in “irreversible default” and effectively out of
court at time in which removingparty [County ofLos
21.

Angeles and County Counsel defendants] removed
case to federal court on 6/13/11 more than 60 days
after being served with Summons and FAC on 5/6/11.
Subsequent rulings in district and Appellate courts
[using fake case files] ‘lacked any arguable basis for
“subject matter jurisdiction” to extend time for
defendants to answer complaint [see WA Rose v.
Municipal Court cited above and federal law Beller
and Keller v. Tyler] ....and pursuant to FRCP
to
60(b)(4) relief from void rulings is mandatory.
which this primary treating physician has every
confidence that this distinguished body of Justices of
the United States Supreme Court... will not deny!
10/25/20
United States Civil
Delaney/ Smith Pharm.D.,M.D.
Surgeon,
Department of Defense -WESTERN
REGIONAL MEDICAL DIRECTOR
And Immigration and Naturalization Services
Primary Treating Physiciantpursuant LC. Sec 4061.5]
Board Qualified Specialist, Emergency Medicine
Diplomat, American Board of; Forensic Medicine
Fellow American College of Forensic Medicine
Former State of California Qualified Medical Evaluator
Mandated Child Abuse Reporter
And “EXPERT WITNESS” WHO ALSO CREATED
“PRIMARY TREATING PHYSICIAN” CONCEPT
CODIFIED INTO CALIFORNIA LABOR C0DE(1993)

22.

Additional material
from this filing is
available in the
Clerk's Office.

